The parties to be served are:
Mark Leonard Rienzi, Counsel of Record
Becket Fund for Religious Liberty
1200 New Hampshire Ave, NW
Suite 700
Washington, DC 20036
rienz@law.edu
202 507 0834
Counsel for Sharonell Fulton, et al.
Neal Kumar Katyal, Counsel of Record
Hogan Lovells US LLP
555 Thirteenth St. N.W.
Washington, D.C. 20004
neal.katyal@hoganlovells.com
202 637 5528
Counsel for City of Philadelphia, et al.
Leslie Cooper, Counsel of Record
American Civil Liberties Union
125 Broad Street
New York,NY 10004
lcooper@aclu.org
212 519 7815
Counsel for Intervenor Support Center for Child Advocates and Philadelphia Family Pride

